No. 20-5525

In the g>WL$&€M€

of tfje WMmem &&&&€&

Larry Bailey, Petitioner
v.
United States et, al., Respondent

k-

On Petition for Writ of Certiorari to the United States Court of Appeals for the Sixth
Circuit

PETITION FOR REHEARING

Larry R. Bailey
Pro Se Litigant
181 Ben Bailey Road
London KY., 40744
Phone No. (606) 261-4761

citing 16 USC § 6802(d). These two cases are cited by numerous courts including the
District and Circuit Courts that reviewed my case.
In this case the courts broke precedent and established that the Forest Service can
charge visitors a fee for parking at a trailhead to hike or use an area not related to the
designated site in question. Therefore, it can charge visitors for services that should be
free to the public. The court's ruling creates a legal conundrum by allowing the Forest
Service to charge a fee for services that it does not have to maintain with the fee revenue.

►
In effect, it allows the Forest Service to charge a fee for parking and entering trails.
The courts reached their rulings through an erroneous opinion by the District
Court which ruled the Secretary of the Interior can "charge visitors an entrance fee"
when he determines a visitor uses a specific facility or service. The Secretary of
Agriculture determines fees for the Forest Service, not the Secretary of the Interior. The
Secretary of the Interior determines fees for National Parks, and criteria for fees differ
greatly between the two. An entrance fee cannot be charged by the Forest Service,
Scherer v. U.S. Forest Service. The error made by the District Court was never addressed
by the Circuit Court.
This Court has previously ruled that,
"the interest in finality of litigation must yield where the interests ofjustice would make
unfair the strict application of our rules." Gondeck v. Pan Am. World Airways, Inc.. 382
U.S. 25 (U.S. 1965); citing U.S. v. Ohio Power Co.. 353 U.S. 98 (U.S. 1957).
It is the duty of the Court to take seriously its consideration of a petition for
rehearing,
"The right to such a consideration is not to be deemed an empty formality as
though such petitions will as a matter of course be denied. This being so, the
denial of a petition for certiorari should not be treated as a definitive

[3]

determination in this Court, subject to all the consequences of such an
interpretation." Flynn v. United States. 75 S.Ct. 285 (U.S. 1955).

CONCLUSION
If this court does not grant certiorari the 6th Circuit ruling will conflict
with legal precedent and allow the Forest Service to charge an entrance fee, and a fee for
parking, which conflicts greatly with establish case law.

►*
I hereby swear is petition for rehearing is presented in good faith and not for delay
pursuant to Rule 44.

Respectfully Submitted;

Larry R. Bailey
181 Ben Bailey Road
London Kentucky, 40744

[4]

